             OFFICE OF
      THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      CLAIMANT REPRESENTATIVE FEES
    PAID THROUGH THE SOCIAL SECURITY
ADMINISTRATION’S ONE-TIME PAYMENT SYSTEM

      November 2010    A-04-10-11026




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      November 24, 2010                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Claimant Representative Fees Paid Through the Social Security Administration’s
           One-Time Payment System (A-04-10-11026)


           OBJECTIVE
           The objective of our audit was to determine whether the Social Security Administration
           (SSA) accurately paid authorized fees to attorneys and non-attorney representatives
           (referred to collectively as representatives) for Title XVI claims, through its One-Time
           Payment system.

           BACKGROUND
           The Supplemental Security Income program is administered under Title XVI of the
           Social Security Act. The basic purpose of Title XVI is to provide a minimum level of
           support to qualified individuals who are blind, disabled, or aged and who have limited
           income and resources.1 To assist with obtaining Title XVI payments, claimants may
           appoint a qualified representative to act on their behalf in matters before SSA. In
           certain situations, claimants agree to compensate representatives for services provided
           to resolve disability claims.

           Generally, SSA calculates claimants’ representative fees based on past-due benefits.
           Past-due benefits typically accrue from the claimant’s benefit entitlement date through
           the month in which SSA certifies the claim for payment. For example, a claimant
           applied for Title XVI disability payments on January 1, 2009, and SSA processed the
           final actions to pay benefits on July 31, 2009. SSA determined the claimant became
           disabled before filing the claim and was therefore entitled to benefits beginning
           February 2009 – the month after applying for Title XVI disability benefits. As such, the
           claimant accrued 6 months of past-due benefits from February through July 2009. The
           representative fee is based on the 6 months of past-due benefits.



           1
               The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
Page 2 - The Commissioner


A representative who wants to charge or collect a fee for services provided in any
proceeding before SSA must first obtain SSA’s approval. 2 To obtain approval, a
representative must submit to SSA either a fee agreement or a fee petition. 3 Both the
fee agreement and fee petition specify the maximum fee that SSA determines a
representative can charge for services. Under a fee agreement, SSA established the
maximum fee as the lesser of $5,300 or 25 percent of past-due benefits. 4 Under a fee
petition, the maximum fee is the “reasonable fee” determined by SSA. 5 The
“reasonable fee” is based on several factors 6 and, unlike a fee agreement, is not limited
to $5,300. 7 Claims representatives in SSA’s field offices have authority to approve
Title XVI fee agreements up to $5,300. 8 Fee authorizers in SSA’s processing centers
approve all fee petitions up to $7,000. Staff in SSA’s Office of Disability Adjudication
and Review must approve all fees in excess of $7,000. 9

A claimant’s representative may also be eligible for “direct” payment. That is, SSA will
withhold the fee from the claimant’s benefits and issue payment directly to the
representative. 10 However, in certain situations, SSA limits the fee it will pay directly to
the representative. Specifically, under a fee petition, SSA limits direct payment to
25 percent of the claimant’s past-due benefits. In situations where the approved fee
exceeds 25 percent of past due benefits, the representative must collect the remainder
of the fee from the claimant. For example, SSA approves an $8,000 fee. The
claimant’s past-due benefits total $28,000. As such, SSA would only pay the

2
  In certain situations, SSA is not required to authorize representatives’ fees. In general, SSA is not
required to authorize fees when the claimant is relieved of all liability to pay the fee. For example, when
the fee is waived or settled through a nonprofit organization or third-party entity. SSA, Program
Operations Manual System (POMS), GN 03920.010 A and B.
3
    SSA, POMS, GN 03920.001 A.
4
 SSA, POMS, GN 03940.003 A.3. Effective February 1, 2002 the limit was $5,300. Effective
June 22, 2009, the limit was increased to $6,000.
5
    SSA, POMS, GN 03920.001 B.1.
6
 A “reasonable fee” is based on such factors as the complexity of the case, extent and type of services
provided, level of skill and competence required, time spent on the case, and results achieved. SSA,
POMS, GN 03930.010 A.
7
 SSA, POMS, GN 03930.015 D (effective June 9, 2006) and GN 03920.015 A.1.a and B (effective
January 28, 2010).
8
    SSA, POMS, GN 03920.015 A.1.b, GN 03940.003 A.3, and GN 03940.002 A and B.
9
 SSA, POMS, GN 03930.015 D (effective June 9, 2006 the limit was $7,000) and GN 03920.015 A.1.a
and B (effective January 28, 2010 the limit was increased to $10,000).
10
  To recover the administrative costs of issuing direct payments, SSA charges a user fee against the
representative fee. The user fee is the lower of a flat fee or a percentage applied to the total
representative fee. Effective December 1, 2008, the flat rate was $83 and the percent rate was
6.3 percent. The previous user rate (effective December 1, 2007) applied a $79 flat rate or a 6.3 percent
rate. SSA, POMS, GN 03920.019 A.
Page 3 - The Commissioner


representative $7,000 ($28,000 X 0.25). The representative would have to collect the
remaining $1,000 fee from the claimant. Table 1 details the characteristics of fee
agreements and fee petitions.

                Table 1: Characteristics of Fee Agreements and Fee Petitions 11
      Fee Type          Time to File              Fee Limit                SSA Payment Limit
                                              Lesser of $5,300
                     Before SSA
     Agreement                                or 25 percent of        Same as the fee limit
                     decides the claim
                                              past-due benefits
                     After the
                                              “Reasonable" fee        Lesser of 25 percent of
                     representative’s
     Petition                                 for the services        past-due benefits or the
                     services have
                                              provided                approved fee
                     ended

For most Title XVI claims, SSA’s systems automatically calculate and pay the claimant’s
representative fee. However, in certain situations, SSA must manually calculate the fee
and make payment through the Agency’s One-Time Payment system. Generally,
claims representatives in SSA field offices are responsible for calculating and paying the
Title XVI-related fee. From July 1, 2007 to June 30, 2009, SSA issued
27,121 one-time payments, totaling about $27.7 million, for representative fees on
Title XVI claims that also involved a concurrent Title II 12 claim.

SCOPE AND METHODOLOGY
We reviewed 250 randomly selected Title XVI claimant representative fee payments
issued through SSA’s One-Time Payment system during the 2-year period July 1, 2007
to June 30, 2009. The 250 payments were for fees of $7,000 or less that SSA
authorized under either a fee agreement or a fee petition. We also reviewed
54 representative fees related to 39 claimants for whom a fee petition authorized a
representative fee in excess of $7,000.

Our sampled claimant representative fees involved concurrent Title XVI and II benefits.
As such, the Title XVI representative fee is impacted by the Title II fee due and paid.
Accordingly, we performed limited tests on the accuracy of Title II representative fees.
To perform our tests, we used information recorded on the claimant’s Master
Beneficiary Record. Specifically, we recalculated the Title II representative fee based
on the benefit entitlement date, claim approval/decision date, and benefits payable.




11
     SSA, POMS, GN 03940.003 A, GN 03940.050 C.3, GN 03920.001 B, and GN 03920.017 D.2.
12
  SSA administers the Old-Age, Survivors and Disability Insurance program under Title II of the
Social Security Act, as amended. The Title II program provides monthly benefits to disabled individuals,
qualified retirees, and survivors, as well as their eligible dependents. (The Social Security Act §§ 202 and
223, 42 U.S.C. §§ 402 and 423.)
Page 4 - The Commissioner


For cases with Title II fee payment errors, we did not calculate a Title XVI representative
fee error. 13 For further details on our scope and methodology, see Appendix A.

RESULTS OF REVIEW
In total, 95 (38 percent) of the 250 randomly sampled Title XVI claimant representative
fees had payment errors totaling $68,532. Projecting our sample results to the
population, we estimate that approximately 10,306 fees had about $7.4 million in
payment errors during the period July 1, 2007 to June 30, 2009. See Appendix B for
our sampling methodology and test results.

Additionally, SSA did not pay the correct amount for 18 of the 39 fee petitions greater
than $7,000. The incorrect payments totaled $36,155. For 16 of the 39 claims, SSA
overpaid the claimants’ representatives by $28,461. For the other two claims, SSA
underpaid the representatives $7,694.

Our sampled claimant representative fees involved concurrent Title XVI and II benefits.
As such, Title XVI representative fees are impacted by the Title II fees due and paid. 14
During our review, we identified situations in which SSA properly adjusted underpaid
Title II representative fees by increasing the representative’s Title XVI-related fee.
However, for 7 of the 250 sampled fees, SSA did not adjust the Title XVI fee to correct
for the underpaid Title II fees. As a result, SSA underpaid representative fees
by $11,882.

PAYMENT ERRORS FOR FEE AGREEMENTS AND PETITIONS $7,000 OR LESS

In total, 95 (38 percent) of the 250 randomly sampled Title XVI claimant representative
fees had payment errors totaling $68,532. The 95 payment errors consisted of
82 overpayments totaling $63,576 and 13 underpayments totaling $4,956.

Of the 82 overpayment errors, 44 (54 percent) occurred because SSA employees did
not properly offset the Title II benefits. Additional overpayments occurred when SSA
employees did not always consider the Title II attorney fee amount previously paid,
resulting in combined Title XVI and II fees that exceeded the applicable fee limit.
Table 2 summarizes the type of overpayment errors.




13
  Our audit objective was to determine whether the Title XVI portion of the representative fee was
correct. However, because our sampled fees involved concurrent Title XVI and II benefits, we
occasionally identified errors in Title II fees due and paid. To estimate the Title XVI errors fairly in the
population, we excluded these cases.
14
  SSA usually pays Title II-related representative fees in advance of the Title XVI fees. The Title XVI fee
processor is then notified of a pending Title XVI representative fee. SSA, POMS, GN 03940.030 A and
GN 03930.080 A.
Page 5 - The Commissioner


                  Table 2: Types of Fee Payment Errors—Overpayments
                                                                                    Number          Amount
                             Type of Fee Error                                      of Fees         of Fees
                                                                                    in Error        in Error
 Title XVI past-due benefits should have been entirely reduced by
                                                                                        44            $38,223
 the Title II benefits payable during the offset period
 Title XVI past-due benefits were not properly reduced for income or,
                                                                                        27             13,271
 in part, by Title II benefits or other benefits
 Computation errors                                                                       7              2,383
 No Title XVI representative fee due—maximum fee was paid from
                                                                                          4              9,699
 Title II Benefits
                                                                         Totals         82            $63,576

We acknowledge the complexity of manually computing Title XVI claimant
representative fees for cases that also involve concurrent Title II benefits. To calculate
a fee, staff first determines the claimant’s past-due Title XVI benefits. If a claimant had
earned or unearned income during the past-due period, SSA must deduct the income
from the past-due benefits. Further, SSA excludes certain benefit payments from the
Title XVI past-due benefit amount. For example, emergency advance payments and
benefits paid to claimants deemed eligible because presumptive disability or blindness
are excluded. 15 Staff must then determine the Title II benefits paid or due during the
past-due period. SSA reduces the Title XVI past-due benefits16 by the amount of the
Title II benefits. In some situations, a claimant’s Title II benefits exceed the Title XVI
benefits during the past-due period. When this occurs, the claimant has no past-due
Title XVI benefits, and the representative is not due a Title XVI fee.

SSA recognized the potential for payment errors in this workload and issued policy
instructions and administrative message reminders on this subject, with the most recent
reminder effective April 2010. 17 The reminders reiterated the importance of accurately
determining the Title XVI past-due benefit amount for attorney fee purposes, especially
when the calculation involved concurrent Title II and XVI benefits.

FEE PETITIONS GREATER THAN $7,000

We reviewed 54 representative fees related to 39 claimants for whom a fee petition
authorized fees in excess of $7,000. For 18 (46 percent) of the 39 claimants, SSA
incorrectly paid representative fees totaling $36,155.



15
     SSA, POMS, GN 03920.031 C.
16
   The Title XVI program is needs-based. As such, for those claimants concurrently eligible for Title II and
Title XVI benefits, receipt of Title II benefits will result in a reduction or elimination of Title XVI benefits.
17
     SSA, Administrative Message-10048, Reminders on Appointed Representative Process.
Page 6 - The Commissioner


A fee petition, unlike a fee agreement, allows a claimant’s representative to receive fees
in excess of $5,300. 18 If eligible, representatives often elect to collect the fees directly
from SSA. That is, SSA withholds the fee from the claimant’s past-due benefits and
issues payment to the representative. 19 However, under a fee petition, SSA limits the
amount of fees it will pay the representative to 25 percent of the total past-due benefits.
When the approved fee is greater than 25 percent of the total past-due benefits, the
claimant is responsible for paying the remainder of the approved fee. 20

SSA overpaid claimants’ representative fees, totaling $28,461, for 16 of the
39 claimants. In each of the cases, SSA paid fees in excess of the payment limit—
25 percent of the claimants’ total past-due benefits. For example, in one case, SSA
authorized a $12,228 representative fee. SSA initially paid $9,609 in Title II-related
fees. SSA subsequently paid the remaining fee—$2,620—from the claimant’s Title XVI
past-due benefits. However, based on the claimant’s past-due benefits, SSA should
have limited its payment to $9,652. As such, SSA overpaid the representative by
$2,576. Additionally, for 2 of the 16 claimants, SSA paid more than the authorized fee.
The overpayments totaled $5,792. For one claimant, SSA personnel incorrectly
recorded in the Agency’s system that they authorized a fee petition of $12,836.
However, our review of the actual fee petition noted that the approved amount was only
$5,724. Nevertheless, SSA paid the representative $10,947—a $5,223 overpayment.
In the other case, the representative fee paid was $569 more than the approved fee.

Finally, for 2 of the 39 claimants, SSA did not pay the total fees authorized under the fee
petitions. For these two claimants, SSA should have paid additional representative fees
of $7,694.

TITLE II CLAIMANT REPRESENTATIVE FEES WERE UNDERPAID

During our review, we identified situations in which SSA initially underpaid the Title II
claimant representative fee, but staff appropriately corrected the underpayment by
increasing the Title XVI-related fee. However, for 7 (2.8 percent) of the 250 sampled
fees, SSA did not adjust the Title XVI fee to correct for the underpaid Title II fees. As a
result, SSA underpaid representative fees by a total of $11,882. 21




18
  SSA, POMS, GN 03930.015 D (effective June 9, 2006), GN 03920.015 A.1.a, and GN 03920.015 B
(effective January 28, 2010).
19
     SSA, POMS, GN 03920.017 B.1.
20
     SSA, POMS, GN 03920.017 D.2.b.
21
  We did not include these seven cases in our error projections. To estimate the Title XVI errors fairly in
the population, we excluded these seven errors.
Page 7 - The Commissioner


For five of the seven underpayment cases, the claimants’ records included auxiliary
beneficiaries. 22 However, SSA only paid the Title II fees related to the claimants’
past-due benefits. As a result, for these five cases, SSA underpaid representative fees
by $7,199. According to SSA policy, a representative is considered to act on behalf of
both the claimant and the claimant’s auxiliary(s), unless the auxiliary appoints his or her
own representative. 23 For example, in one case, SSA paid total fees of $2,297.
However, based on the auxiliaries’ past-due Title II benefits, the representative should
have received the maximum $5,300 fee—a $3,003 underpayment.

For the other two underpayments, the claimants’ representative fee did not involve
auxiliaries’ past-due benefits. The representatives were only due a Title II-related fee.
In one case, the maximum fee of $5,300 should have been paid from the claimant’s
Title II past-due benefits. In the other case, the claimant’s past-due Title II benefits
entirely offset the Title XVI benefits. In both cases, SSA paid Title XVI related fees;
however, the payments were less than the Title II fees due. SSA underpaid the
representative fees by $4,683. Table 3 summarizes the seven underpaid Title II fees.

                   Table 3: Underpaid Claimants’ Representative Fees
              Total                               Representative
                             Additional                                       Total
            Title XVI                              Fee Involved                          Adjusted
                             Title II Fees                                    Fees
           and Title II                              Auxiliary                           Fee Error
                                  Due                                         Due
           Fees Paid                                Benefits?
     1            $2,297            $3,003                Yes                 $5,300        $(3,003)
     2               705             2,355                No                   3,060         (2,355)
     3             2,972             2,328                No                   5,300         (2,328)
     4             3,456             1,844                Yes                  5,300         (1,844)
     5             2,881             1,246                Yes                  4,127         (1,246)
     6             2,955               760                Yes                  3,715           (760)
     7               768               346                Yes                  1,114           (346)
                                                                               Total       $(11,882)

CONCLUSION AND RECOMMENDATIONS
In total, 95 (38 percent) of the 250 randomly sampled Title XVI claimant representative
fees had payment errors totaling $68,532. Additionally, SSA did not always make
accurate fee payments to claimants for whom SSA authorized fees greater than
$7,000. We acknowledge the complexity of manually computing Title XVI
representative fees for cases that involve concurrent Title II benefits. However, we
believe SSA needs to improve the payment accuracy of manually calculated Title XVI
representative fees.

22
  The Social Security program recognizes the claimant and the claimant’s family. If the claimant is
retired, disabled, or deceased, monthly benefits are paid to an eligible surviving spouse or parent and
children. SSA refers to the claimant’s family members as “auxiliaries.”
23
  SSA, POMS, GN 03920.017 C.5, and Administrative Message-10048, Reminders on Appointed
Representative Process.
Page 8 - The Commissioner


As such, we recommend SSA:
1. Require that all manually calculated Title XVI claimant representative fees that
   involve concurrent Title II benefits be reviewed by an experienced peer or supervisor
   before the fee is processed through the One-Time Payment system.
2. Determine whether representatives collected additional fees from claimants when
   SSA paid representative fees in excess of the direct payment limit – for the 16 cases
   identified during our review. If additional fees were collected, take actions to have
   the representative return the fee to SSA for credit to the claimant.
3. Recover the overpaid representative fees identified during our review.
4. Pay the underpaid representative fees identified during our review.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. See Appendix C for the full text of SSA’s
comments.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Sampling Methodology and Test Results
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                         Appendix A

Scope and Methodology
From the Social Security Administration’s (SSA) Supplemental Security Record, we
identified 27,121 Title XVI one-time payments issued from July 1, 2007 to
June 30, 2009. The payments totaled about $27.7 million. SSA issued the one-time
payments to claimants’ representatives (eligible attorney and non-attorney
representatives) as fees for services related to the Title XVI portion of the claimants’
concurrent benefit claim. The one-time payments were less than $7,000 and were
related to representative fees authorized under a fee agreement or fee petition.

We sampled 250 of the 27,121 one-time payments. We also reviewed all
representative fees over $7,000 authorized under a fee petition—54 fees related to
39 claimants.

To accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations as well as SSA’s policies and
    procedures that govern payment of claimants’ representative fees.

•   Reviewed previous Office of the Inspector General reports pertaining to
    representative fees.

•   Queried and reviewed representative fee information from SSA’s Supplemental
    Security Record, Master Beneficiary Record, Payment History Update System, and
    Single Payment System.

•   Interviewed SSA personnel to obtain an understanding of the procedures for
    processing representative fees.

•   Obtained and reviewed information from SSA’s Paperless and E-file systems.

Because our sampled claimant representative fees involved concurrent Title XVI and
Title II benefits, the Title XVI representative fee is impacted by the Title II fee due and
paid. Accordingly, we performed limited tests on the accuracy of the Title II
representative fees. To test the Title II fees, we used information recorded on the
claimant’s Master Beneficiary Record. Specifically, we calculated the Title II
representative fee based on the benefit entitlement date, claim approval/decision date,
and the benefits payable. For cases with Title II fee payment errors, we did not
calculate a Title XVI representative fee error.




                                            A-1
We determined the computer-processed data from the Supplemental Security Record,
used to select our population, were sufficiently reliable for our intended use. We
conducted tests to determine the completeness and accuracy of the data received.
These tests allowed us to assess the reliability of the data and achieve our audit
objective.

We performed our audit work in Atlanta, Georgia, between January and May 2010. The
entities reviewed were SSA’s Offices of Operations and Disability Adjudication and
Review. We conducted our audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                         A-2
                                                                                     Appendix B

Sampling Methodology and Test Results
SAMPLING METHODOLOGY

We sampled 250 of the 27,121 one-time payments issued through the Social Security
Administration’s (SSA) One-Time Payment system during the 2-year period July 1, 2007
to June 30, 2009, which totaled about $27.7 million. SSA issued the One-Time
Payments to claimants’ representatives (eligible attorney and non-attorney
representatives) as fees for services related to the Title XVI portion of the claimants’
concurrent benefit claim. The One-Time Payments were less than $7,000 and
authorized by either a fee agreement or a fee petition. The following chart details our
sample selection.

Scope of Fee Agreement/Petition Sample -- $7,000 or Less
                                  Population          Population
        Fee Category                                                      Sample            Sample
                                  Number of           Amount of
        Dollar Amount                                                      Size             Dollars
                                    Fees              Fees Paid
    Fee Agreements and
    Fee Petitions with Fees
                                    27,121           $27,701,700             250           $268,233
    Totaling $7,000 or Less
    per Claimant

OTHER TESTS

We also reviewed all representative fees over $7,000 authorized under a fee petition—
54 fees related to 39 claimants. The following chart details the selected representative
fees.

Scope of Fee Petition Review – 100 Percent of Fees over $7,000
                                  Population          Population
        Fee Category                                                      Sample            Sample
                                  Number of           Amount of
        Dollar Amount                                                      Size             Dollars
                                    Fees              Fees Paid
    Fee Petitions                    54                125,834 1             54             125,834
    Authorizing Fees Over
    $7,000 per Claimant




1
  The $125,834 is the Title XVI representative fees paid for the 39 claimants. The Title II representative
fees for the 39 claimants totaled $228,842.


                                                    B-1
Because our sampled claimant representative fees involved concurrent Title XVI and
Title II benefits, the Title XVI representative fee is impacted by the Title II fee due and
paid. Accordingly, we performed limited tests on the accuracy of the Title II
representative fees for all 304 representative fees.

SAMPLING AND TEST RESULTS

Sampling Results—Title XVI Representative Fees $7,000 or Less Paid in Error

               Projections of Attribute and Variable Appraisals
                             Attribute Appraisal Projections
 Population and Sample Data                                                      Decisions
 Total Population                                                                    27,121
 Sample Size                                                                            250
 Title XVI Representative Fees Paid in Error                                             95
 Projection to Population                                                      Projections
 Point Estimate                                                                      10,306
 Lower Limit                                                                          8,923
 Upper Limit                                                                         11,746
                             Variable Appraisal Projections
 Population and Sample Data                                                         Dollars
 Total Population                                                              $27,701,700
 Sample                                                                           $268,233
 Title XVI Representative Fees Paid in Error                                       $68,532
 Projection to Population                                                      Projections
 Point Estimate                                                                 $7,434,673
 Lower Limit                                                                    $5,893,359
 Upper Limit                                                                    $8,975,987

We made all projections at the 90-percent confidence level.




                                             B-2
Test Results—Representative Fees over $7,000 Authorized Under a Fee Petition

      Number of Representative Fees (39 Claimants)                      54
      Total Dollars of Fees Tested                                 $125,834
      Number of Claimants with Representative Fees Paid in Error        18
      Dollar Amount of Representative Fees Paid in Error            $36,155

OVERALL SAMPLING AND TEST RESULTS—DOLLARS

  Title XVI Representative Fees
  Projected Dollar Amount of Representative Fees Paid in Error—
                                                                    $7,434,673
  Point Estimate
  Representative Fees Over $7,000 Authorized under a Fee Petition
  Actual Dollar Amount of Representative Fees Paid in Error            $36,155
  Title II Fees
  Actual Dollar Amount of Representative Fees Paid in Error            $11,882
  Total Sampling and Test Results
  Total Amount of Representative Fees Paid in Error                 $7,482,710




                                        B-3
                  Appendix C

Agency Comments
                                             Social Security


MEMORANDUM


Date:      October 26, 2010                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Claimant Representative Fees Paid
           Through the Social Security Administration’s One-Time Payment System”
           (A-04-10-11026)--INFORMATION

           Thank you for the opportunity to review the subject report. Please see our attached comments.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “CLAIMANT REPRESENTATIVE FEES PAID THROUGH THE SOCIAL
SECURITY ADMININSTRATION’S ONE-TIME PAYMENT SYSTEM” (A-04-10-11026)

Thank you for the opportunity to review the subject report. We offer the following responses to
your recommendations.

Recommendation 1

Require that all manually calculated Title XVI claimant representative fees that involve
concurrent Title II benefits be reviewed by an experienced peer or supervisor before the fee is
processed through the One-Time Payment system.

Response

We agree. In your draft report, you acknowledge there is a great deal of complexity involved in
manually computing Title XVI claimant representative fees for cases that also involve concurrent
Title II benefits. That is one reason why we require a second personal identification number
(PIN) when processing these fees in our One-Time Payment system. However, our system does
not distinguish whether the second PIN is that of a technical expert or supervisor, so we are
evaluating what we must do to include that functionality.

On August 20, 2010, we released a reminder to all technicians clarifying the critical steps they
must follow when manually processing appointed representative fees using the
One-Time Payment system.

Recommendation 2

Determine whether representatives collected additional fees from claimants when SSA paid
representative fees in excess of the direct payment limit—for the 16 cases identified during our
review. If additional fees were collected, take actions to have the representative return the fee to
SSA for credit to the claimant.

Response

We agree. By the end of November 2010, we will review the 16 cases you cited in your draft
report and we will work with the beneficiaries to determine whether representatives collected
fees that exceeded the payment limits. If we determine there were excessive fees, we will pursue
repayment from representatives and refund the beneficiaries.




                                                C-2
Recommendation 3

Recover the overpaid representative fees identified during our review.

Response

We agree. By the end of November 2010, we will review the 82 cases you cited in your draft
report and we will take the appropriate action to recover the overpayments and refund the
beneficiaries.

Recommendation 4

Pay the underpaid representative fees identified during our review.

Response

We agree. By the end of November 2010, we will review the 13 cases you cited in your draft
report and where appropriate will pay representatives their proper fees.




                                               C-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Teaketa Turner, Senior Auditor

   Lisa Swanson, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-10-11026.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
